No.

IN THE
SUPREME COURT OF THE UNITED STATES

GREGG MCNAMARA
(Your Name)

— PETITIONER

VS.
THE ATTORNEY GENERAL OF CALIFORNIA

RESPONDENT (S)

PROOF OF SERVICE

________________ , do swear or declare that on this date,
, 20^1—, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I.

Q)

The names and addresses of those served are as followsOffice of the Attorney General. 300 South Spring Street. Los Angeles, California 90013-1230

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

A/ 22

., 2021

(Signatur

Trf.

zD

MAY 7 n 2021
• iCeOF THE CLERK
-QXREME COURT, U.SV

